<html>
<title> - NOMINATIONS OF HON. TODD WALTHER DILLARD AND ROBERT R. RIGSBY</title>
<body><pre>[Senate Hearing 107-554]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-554
 
     NOMINATIONS OF HON. TODD WALTHER DILLARD AND ROBERT R. RIGSBY
=======================================================================


                                HEARING

                               before the


                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                 ON THE

  NOMINATIONS OF HON. TODD WALTHER DILLARD TO BE U.S. MARSHAL FOR THE 
 SUPERIOR COURT OF THE DISTRICT OF COLUMBIA AND ROBERT R. RIGSBY TO BE 
  AN ASSOCIATE JUDGE OF THE SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

                               __________

                              MAY 16, 2002

                               __________

      Printed for the use of the Committee on Governmental Affairs




                       U. S. GOVERNMENT PRINTING OFFICE
80-601                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



                   COMMITTEE ON GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 FRED THOMPSON, Tennessee
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
RICHARD J. DURBIN, Illinois          SUSAN M. COLLINS, Maine
ROBERT G. TORRICELLI, New Jersey     GEORGE V. VOINOVICH, Ohio
MAX CLELAND, Georgia                 THAD COCHRAN, Mississippi
THOMAS R. CARPER, Delaware           ROBERT F. BENNETT, Utah
JEAN CARNAHAN, Missouri              JIM BUNNING, Kentucky
MARK DAYTON, Minnesota               PETER G. FITZGERALD, Illinois
           Joyce A. Rechtschaffen, Staff Director and Counsel
              Jason M. Yanussi, Professional Staff Member
                Jennifer E. Hamilton, Research Assistant
Marianne Clifford Upton, Staff Director and Chief Counsel, Oversight of
   Government Management, Restructuring and the District of Columbia 
                              Subcommittee
              Richard A. Hertling, Minority Staff Director
                  Johanna, L. Hardy, Minority Counsel
  Andrew Richardson, Minority Staff Director, Oversight of Government 
                              Management,
        Restructuring and the District of Columbia Subcommittee
                     Darla D. Cassell, Chief Clerk







                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Durbin...............................................     1
Prepared statements:
    Senator Cleland..............................................    11
    Senator Bunning..............................................    11

                               WITNESSES
                         Thursday, May 16, 2002

Hon. Eleanor Holmes Norton, a Delegate in Congress from the 
  District of Columbia...........................................     3
Hon. Todd Walther Dillard to be U.S. Marshal for the Superior 
  Court of the District of Columbia..............................     4
Robert R. Rigsby to be an Associate Judge of the Superior Court 
  of the District of Columbia....................................     4

                     Alphabetical List of Witnesses

Dillard, Hon. Todd Walther:
    Testimony....................................................     4
    Prepared statement...........................................    13
    Biographical and professional information....................    14
    Pre-hearing questions and responses..........................    19
Norton, Hon. Eleanor Holmes:
    Testimony....................................................     3
Rigsby, Robert R.:
    Testimony....................................................     4
    Prepared statement...........................................    27
    Biographical and professional information....................    31

                                Appendix

Hon. Paul Strauss, Shadow U.S. Senator elected by the voters of 
  the District of Columbia, prepared statement...................    12


     NOMINATIONS OF HON. TODD WALTHER DILLARD AND ROBERT R. RIGSBY

                              ----------                              


                         THURSDAY, MAY 16, 2002

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:44 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Richard J. 
Durbin presiding.
    Present: Senator Durbin.

              OPENING STATEMENT OF SENATOR DURBIN

    Senator Durbin. The hearing will come to order. Good 
afternoon and welcome to all. Today, the Senate Committee on 
Governmental Affairs holds a hearing to consider two 
nominations pending before the Committee: Robert Rigsby to be 
an Associate Judge in the District of Columbia Superior Court, 
and Hon. Todd Walther Dillard to be U.S. Marshal for the 
District of Columbia Superior Court.
    On March 4, 2002, President Bush nominated Robert Rigsby to 
be an associate judge on the Superior Court of the District of 
Columbia for a 15-year term to fill the vacancy created by the 
elevation of Judge Reggie Walton to the Federal bench.
    Mr. Rigsby is presently the corporation counsel for the 
District of Columbia. He is the top local prosecutor in Mayor 
Williams' administration, a post he has held since being 
confirmed by the City Council in February 2000. Prior to 
assuming the helm of the office he served as head of the 
criminal division and head of the enforcement division. He also 
spent a month in the U.S. Attorney's Office for the Eastern 
District of Virginia prior to joining the D.C. Government.
    From 1987 until 1992 he served in the U.S. Army with the 
Judge Advocate General Corps and is currently an Army 
reservist. He received his undergraduate degree from San Jose 
State University in 1983 and his juris doctorate from the 
University of California-Hastings College of Law in 1986.
    President Bush nominated Mr. Dillard on February 6, 2002, 
for the position of U.S. Marshal for the Superior Court of the 
District of Columbia for a 4-year term. Mr. Dillard is being 
reappointed to a position he has held since being sworn in on 
December 2, 1990 following unanimous confirmation by the full 
Senate on October 27 the same year.
    Prior to being named a U.S. Marshal Mr. Dillard served for 
25 years in the U.S. Secret Service attaining the rank of 
criminal investigator and inspector. He holds an MBA from 
Cornell University.
    Mr. Rigsby and Mr. Dillard, I am certain this is a very 
special day for each of you. Mr. Dillard, I note that you 
appeared before this Committee on October 19, 1990 when the 
U.S. Marshal post was first created in the District. And Mr. 
Rigsby, I note that you were here as a supportive spouse on May 
10, 2000 when your wife Anna Blackburne Rigsby's nomination to 
the Superior Court bench was considered.
    So I welcome both of you back today. I understand that you 
may have some family members with you, as well as colleagues 
and friends. Let me call on you to introduce them at this time. 
First, Mr. Dillard.
    Mr. Dillard. Thank you very much. I do have with me my son 
and my three top staff people. My very tolerant and supportive 
wife of 42 years could not be here. My son, Special Agent Don 
Dillard is here, with the U.S. Secret Service. In addition, I 
would like to introduce my three top staff people, without whom 
I could not even hope to do the job that I have been doing for 
a good while now. The first one is my Chief Deputy, Charles 
Rowe; my Assistant Chief Deputy, Mike Mitchell; and my 
Administrative Support Person, Mrs. Ethel Bradley.
    Thank you.
    Senator Durbin. Thank you very much. Mr. Rigsby.
    Mr. Rigsby. Good afternoon, sir. I would like to start by 
introducing my wife of almost 10 years, my judge, Anna 
Blackburne Rigsby. Our son of 4 years, he is running around 
here somewhere, Julian Christopher Rigsby.
    Senator Durbin. We note his presence.
    Mr. Rigsby. Thank you. My mother-in-law, who is also a 
Supreme Court judge in New York, Laura Blackburne. My two 
sisters-in-law, Dr. Rose Blackburne, and Faith Blackburne. 
Rose's fiance Anthony Shurn is here and my cousin Lieutenant 
Colonel Jeannette Hammond. My brother, Dr. Rick Ribsby, who is 
a college professor at Texas A&M is giving a speech out of the 
country--he could not be here. And both of my parents, Roger 
and Viola Rigsby--they died before this process began, but I 
have quite a few other people here who have been like parents 
to me and role models for me.
    The mayor could not be here today. He has been a great 
supporter and a great friend. Our city administrator is here, 
Hon. John Koskinen, who is like an older brother. John Payton 
is here, the President of the D.C. Bar who is our son's 
godfather and who has been like a father to me and a big 
brother. Jeff Robinson is here, who is a brother to me. Mike 
Madigan, who is a big, big, big brother to me.
    Senator Durbin. I know Mr. Madigan. Good to see you again.
    Mr. Rigsby. My first boss in the U.S. Army JAG Corps, 
Colonel Mac Squires is here, in the back, at Fort Campbell, 
Kentucky. Colonel Bolden is here, who is a good friend and 
supporter. Lieutenant Colonel Raphael Peart is here; Lieutenant 
Colonel Cantwell; my Command Sergeant Major of my Reserve unit 
is here, Varney Smith. My office, the Office of the Corporation 
Counsel, my principal deputy who runs the office, Arabella Teal 
is here. My senior deputies, John Greenhaugh, a retired 
colonel; Sharon Styles-Anderson, Charlie Barbera, Darryl 
Gorman, and Peter Lavalle. They are all here today, along with 
my executive assistant, who practices law better than anybody 
else in the office, Denize Blake, she runs my life also.
    And we have several members of the bench that are here that 
are good friends: The Hon. Richard Roberts, who is a Federal 
judge is here; the Hon. Anita Josie Herring, who is a good 
friend and colleague is here; the Hon. Lee Satterfield is here 
who is also a good friend; and the Hon. Mary Terrell. Someone 
who is like a brother to me, the Hon. Eric Christian, I believe 
is here. And I believe the former Chief Judge, the Hon. Eugene 
Hamilton should be coming here. He is like a father to me also.
    Members of my fraternity are here, my college fraternity; 
Lloyd Jordan who has been a friend; Dr. Ivan Walks who is the 
chief medical officer for the city of Washington is here. I 
know I am going to miss someone, Senator, but I have got a 
whole host of family and friends that have been supportive over 
the years that are here, and I am just so proud.
    I cannot forget--members of my church, Shiloh Baptist 
Church, the church that embraced Anna and I since I arrived in 
Washington in 1992 are here; several deacons, Deacon Dudley and 
Mrs. Dudley, and Deacon Bridgeport. I just wanted to make sure 
I mentioned them. I am not going to take up any more time 
because they are all very, very, very supportive.
    Senator Durbin. I would say, Congresswoman Norton, that we 
should move this hearing along quickly because it sounds like 
there are voice mails accumulating all over D.C. Government. 
[Laughter.]
    Hearings that are being continued in courtrooms across the 
United States, and with all of the military people here I am 
worried about our national security if we do not get them back 
to work. So let me recognize my friend and colleague 
Congresswoman Norton at this time.

TESTIMONY OF HON. ELEANOR HOLMES NORTON, A DELEGATE IN CONGRESS 
                 FROM THE DISTRICT OF COLUMBIA

    Ms. Norton. Mr. Chairman, noting your role as the Chair of 
our authorizing Committee I do want to assure you that I 
believe the work of the District of Columbia is still being 
done during this hearing.
    It is always a pleasure to introduce judges and other 
personnel who have been nominated by the President to our 
Superior Court. It is a special pleasure to recommend to you 
Mr. Rigsby, Robert R. Rigsby, who is our corporation counsel, 
and who worked his way up to that position by showing his 
excellence. You have already, I think, amply covered his 
positions before that time. Considering the time that has gone 
past I will only say that I strongly recommend him based on his 
splendid record in the District of Columbia and the notes you 
have already given as to his background.
    It is my pleasure as well to recommend to you Hon. Todd W. 
Dillard, who has been nominated by the President to be the 
Marshal for the Superior Court. Mr. Dillard has a classic 
preparation for the position, most of it in the Secret Service 
but 10 years in the Marshal's Service; well-educated before 
that. It is a great pleasure for me to introduce them both to 
you and I proudly recommend them both to you, Mr. Chairman.
    Senator Durbin. Congresswoman Norton, thank you again for 
coming to this side of the Capitol to be part of this Committee 
hearing and the consideration of both nominees. I know what 
your schedule is like so you are certainly excused, from my 
point of view, if you need to go about the work of the District 
of Columbia and I wish you well. Thank you very much for being 
with us.
    Ms. Norton. Thank you.
    Senator Durbin. Now it is customary at this point to swear 
in witnesses before the Committee and I would ask you each to 
stand and raise your right hand.
    [Witnesses sworn.]
    Senator Durbin. Thank you. Let the record note that both 
witnesses answered in the affirmative. I note that you each 
have submitted a written statement which will be made part of 
the record. If you would like to have brief opening remarks at 
this point, I welcome them. Let us start first with Mr. 
Dillard.

 TESTIMONY OF HON. TODD WALTHER DILLARD \1\ TO BE U.S. MARSHAL 
       FOR THE SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Mr. Dillard. Thank you, Senator. I would just like to take 
this opportunity to thank President Bush, first of all, for 
nominating me for this position. I would like to thank Chairman 
Lieberman, and of course Senator Durbin and the other Members 
of the Committee for holding this confirmation hearing. I would 
also like to thank Congresswoman Norton for her very gracious 
introduction and for her support.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Dillard appears in the Appendix 
on page 13.
     The biographical information for Mr. Dillard appears in the 
Appendix on page 14.
     Pre-hearing questions and responses from Mr. Dillard appear in the 
Appendix on page 19.
---------------------------------------------------------------------------
    As a native Virginian, I would like to thank Senator Warner 
for his continued support through the years. I would be very 
remiss if I did not thank God for the health that he has given 
me to be able to continue in this work. And I would like to 
thank the American public for allowing me to continue to serve.
    I would like to thank the Members of this Committee for 
granting me the time to introduce my family members and the 
members of my staff. At this time I am prepared to answer any 
questions you may have.
    Senator Durbin. Thank you very much. Mr. Rigsby.

 TESTIMONY OF ROBERT R. RIGSBY \2\ TO BE AN ASSOCIATE JUDGE OF 
         THE SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Mr. Rigsby. Thank you, Senator. First of all, I would like 
to thank you for holding this hearing today. I cannot tell you 
what an honor it is just to be here. I would like to thank the 
respective staff members from each Senate office that took the 
time to answer my millions of questions, and for walking me 
through the process.
---------------------------------------------------------------------------
    \2\ The prepared statement of Mr. Rigsby appears in the Appendix on 
page 27.
     The biographical information for Mr. Rigsby appears in the 
Appendix on page 31.
---------------------------------------------------------------------------
    I am so honored to be here. I grew up in a small town in 
California, Vallejo, California and in my hometown my parents--
my father who was from Huntsville, Texas and my mother was from 
Okmulgee, Oklahoma, always believed in community and public 
service. I cannot tell you how proud I think that they would 
be, had they been here today, that their youngest son actually 
is appearing here today.
    My entire life I wanted to be an Army officer, and by the 
gentlemen in this room I have tried to pattern my life after, I 
thought the greatest gift that you could possibly give is to be 
a military officer in defense of our values, our freedom, and 
our country. The hardest thing for me, I told a friend of whom 
I did not introduce today, Roger Washington, who is now a U.S. 
Army Colonel, the hardest thing for me was to leave active duty 
and to become a reservist. But in a lot of ways, it was a 
further illustration of devoting yourself to your country in a 
different way by serving Washington, DC.
    Then-corporation counsel John Payton asked me to come to 
his office to be his deputy almost 10 years ago because he 
thought that the greatest gift that you could possibly give 
would be to do something great in the city of Washington, DC. 
That being said, I have embarked upon this journey in 
Washington that has been phenomenal. I have enjoyed living 
here. I have enjoyed working here. I have truly enjoyed public 
service and look forward to continuing my service.
    I married into a family of public servants. Obviously, you 
know my wife is a terrific judge, and hopefully one day I can 
be just like my best friend, my soulmate. She is the reason why 
I am here. She is just a wonderful judge and a wonderful 
person. Again, my mother-in-law is a terrific judge and a 
terrific mother-in-law, and I can say that on the record or off 
the record because I really do truly love her. And my father-
in-law, Elmer Blackburne, who could not be here today, is the 
district leader in Queens, New York. Everybody in this family 
believes in giving something back.
    I just want to further my public service by becoming a 
judge on the Superior Court of the District of Columbia. I 
cannot think of a better calling than being a judge here in the 
District of Columbia.
    I want to personally thank you for holding this hearing, 
and thank you for allowing me to ramble on, and on, and on. I 
really appreciate it.
    Senator Durbin. Thank you very much, Mr. Rigsby. Your 
comments recalled an experience I had shortly after being 
elected to the Senate where I was called over across the street 
to the Supreme Court, to the inner sanctum, to a huge hall 
where they attracted Federal judges from across the United 
States to meet with Chief Justice Rehnquist. At one point there 
I was sitting down and he came and sat next to me as I made a 
presentation to all these assembled judges. I said at the time 
that my late mother and father would have been so proud, and my 
professors at law school at Georgetown would have been totally 
amazed to see me sitting there that day. [Laughter.]
    Now you have been through a lot to have reached this point, 
and you have gone through a very thorough screening process, a 
thorough biographical questionnaire which, Mr. Rigsby, you may 
have faced for the first time; Mr. Dillard, you faced again. 
Background checks, interviews, they have looked under every 
rock, they have asked everybody, friend and foe alike what they 
think of you. And what has come through in the record is that 
you both have extensive and exemplary records of public service 
to the District of Columbia and to the country, and I commend 
you for that.
    Now it is customary and required under Committee rules that 
I ask you several specific questions for the record so that 
your answers are reflected in the minutes of this hearing. 
First I will ask of Mr. Rigsby, is there anything that you are 
aware of in your background that might present a conflict of 
interest with the duties of the office to which you've been 
nominated?
    Mr. Rigsby. No, sir.
    Senator Durbin. Mr. Dillard, the same question, is there 
anything you are aware of in your background that might present 
a conflict of interest with the duties of the office to which 
you have been nominated?
    Mr. Dillard. No, sir.
    Senator Durbin. Second, Mr. Rigsby, do you know of any 
reason, personal or otherwise, that would in any way prevent 
you from fully and honorably discharging the responsibilities 
of the office to which you have been nominated?
    Mr. Rigsby. No, sir.
    Senator Durbin. Mr. Dillard, do you know of any reason, 
personal or otherwise, that would in any way prevent you from 
fully and honorably discharging the responsibilities of the 
office to which you have been nominated?
    Mr. Dillard. No, sir.
    Senator Durbin. Mr. Rigsby, do you know of any reason, 
personal or otherwise, that would in any way prevent you from 
serving the full term for the office to which you have been 
nominated?
    Mr. Rigsby. No, sir.
    Senator Durbin. Mr. Dillard, do you know of any reason, 
personal or otherwise, that would in any way prevent you from 
serving the full term for the office to which you have been 
nominated?
    Mr. Dillard. No, sir.
    Senator Durbin. Let the record reflect the witnesses have 
each answered these questions in the negative.
    I am going to direct a question to Mr. Rigsby, and that is 
only reflective of the fact that, Mr. Dillard, you are a 
veteran of this process. We have asked most of these questions 
of you time and again, and we trust that your answers in the 
past would be the same answers today.
    But the one question I would like to ask Mr. Rigsby--and 
this is a little delicate because it refers to something that 
may be a family consideration as well as a professional 
consideration, and it is a question about judicial temperament. 
I can tell you that as a practicing attorney many years ago, 
appearing before many judges, that some of them, the 
appointment to the bench went straight to their head. Once they 
put on the black robe they seemed to have lost their feet of 
clay. They were now somehow in the divinity, well beyond the 
reach of ordinary people. And it was reflected in the way that 
they not only treated the lawyers, but the litigents who came 
before them.
    I would like for you, if you would, to reflect for a 
moment, having been an attorney, knowing a few judges in your 
life, what your thoughts are on this question of judicial 
temperament.
    Mr. Rigsby. Senator, I have had two great role models in 
life--actually four great role models in life but two as 
judges. I have had the wonderful opportunity in the last 2 
years to watch a judge in my own home be the same person she 
was before she became a judge; inasmuch as listening to people, 
treating people with respect and dignity, and honor. I think 
once a person ascends to the bench, I guess that is the word I 
would like to use, it does not mean that they become different. 
It means that they are the keeper of justice.
    I will continue to care about people, to be fair to 
litigants, to be fair to everybody in the community, and to 
contribute the best that I possibly can, to show people that 
judges are not any different than anybody else. We are just 
fortunate enough to be in a position at a given time to make a 
difference. I think that judges should continue to participate 
in the community, continue to coach Little League, continue to 
have friends, continue to be in fraternities, to continue to do 
things in their respective churches. I do not think that you 
should put yourself above anyone else, or put the practice of 
law below anyone else. I think you should treat everybody with 
dignity and respect.
    Senator Durbin. One of the things in your background I 
particularly admire is the service to your country in the U.S. 
Army Judge Advocate General Corps. But I want to ask you a very 
practical question. I understand your Reserve unit has been on 
alert for potential active duty deployment. How would an 
appointment to the bench impact your military commitment?
    Mr. Rigsby. Sir, right after President Bush nominated me I 
spoke to the Office of the Judge Advocate General and they were 
very supportive of me leaving my current Reserve unit and 
joining a military judges unit here in Washington, DC. I was 
just promoted to lieutenant colonel, I think about 2 months ago 
now.
    Senator Durbin. Congratulations.
    Mr. Rigsby. Thank you, sir. And they were willing to remove 
me from the assignment as being a JAG officer, a judge advocate 
general's officer in my military police brigade where I serve 
as the staff judge advocate, and reassigning me to a unit here 
in Washington which would not be deployed. I cannot comment on 
where my Reserve unit may or may not go. I cannot even comment 
on whether or not they exist today. What I can tell you is that 
I will continue to defend my country but in a different role.
    Senator Durbin. Thank you.
    Mr. Dillard, you are the first in this post. You really 
were kind of the founding father here when it comes to this 
assignment. You have served for approximately 11 years as U.S. 
Marshal for the District of Columbia Superior Court. What do 
you regard as your most significant accomplishment?
    Mr. Dillard. Senator, when I took this position it had been 
held on kind of a temporary basis by an acting marshal who was 
actually from the Marshal's office for the District of 
Columbia, judicial District of Columbia. As such it had not 
gotten the real attention that it deserved as a separate entity 
in and of itself. In the time I have been there, with the help 
of my staff, we have been able to get it recognized as just 
that, as an independent Marshal's Service office. We were like 
the stepchild, for want of a better term, if you will. That is 
no longer true. We are now held right up among the top 
Marshal's office in the U.S. Marshal's Service.
    Senator Durbin. Could you tell me about the men and women 
who work with you in your office, their level of 
professionalism and your ability to attract people who can do 
the job well?
    Mr. Dillard. Senator, pound for pound--and I say this to 
them and I say this to the world, I will put the people in my 
office against law enforcement anywhere in the world. As a 
member of the Secret Service for a quarter of a century, I was 
blessed to travel and work all over the world. I will put my 
people, pound for pound, against any people in the world.
    You have to be a cut above to work where we work, because 
we have the largest and busiest office in the Marshal's 
Service. The reason being because we serve not only--I serve 
not only as the U.S. Marshal, I serve as the de facto sheriff 
of the District of Columbia, because as you know, they do not 
have a sheriff's department. So we handle anywhere from 90,000 
to 100,000 prisoners a year. And we do not have the cream of 
the crop. We get what they send us. We get a lot of interesting 
people.
    We work 6 days a week, unlike any other Marshal's office. 
Most of them work 5 days a week, about 9 to 5. I am not being 
critical; that is their role. We work 6 days a week. The only 
day we do not operate is on a Sunday. Holidays and all, we work 
6 in the morning to 6 at night. To do the kind of job that we 
demand of our people, and have the success that we have had, 
they have to be a cut above.
    Senator Durbin. Mr. Dillard, let me say on behalf of the 
Senate and someone who has lived a good part of his life, at 
least part-time, sometimes full-time in the District of 
Columbia, that I certainly respect what you have done and 
contributed through the U.S. Marshal's office.
    This is a particularly historic week in that the law 
enforcement officials from across the United States have come 
to Washington yesterday for a memorial service to honor those 
who have fallen in the line of duty during the past year. It is 
a very touching ceremony each year, made even more so this year 
because of the events of September 11. I hope that it is a 
reminder to all of us never to forget that those of you who get 
up every morning and put on a badge and put your life on the 
line for us deserve our admiration, respect, and thanks. So I 
thank you for what you have done, and I thank you for all your 
colleagues who have joined in that effort.
    At this point I have no further questions and I thank you 
for your responses. They were very appropriate and encouraging. 
I want to thank all the family members and friends and 
colleagues for joining us today. The next step in the process 
will be the prompt consideration of your nominations at full 
Committee markup. I think that things will go well.
    Let me note that the record of this hearing will remain 
open for a period of 1 week to permit other Members of the 
Committee to submit statements or additional questions to the 
nominees. I also note that a statement in support of the 
nomination of Mr. Rigsby has been submitted by Paul Strauss and 
that will be included as part of the hearing record.
    With that, this hearing is adjourned.
    [Whereupon, at 3:07 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              


                 PREPARED STATEMENT OF SENATOR CLELAND
    I am writing to express my full support for the nomination of 
Robert Rigsby to be Associate Judge in the District of Columbia 
Superior Court. I believe that Mr. Rigsby would be an excellent 
addition to this court, which serves as the gateway for many important 
Federal cases.
    Mr. Rigsby has had a distinguished legal career and has developed a 
vast reservoir of experience and knowledge. He is currently serving as 
Corporation Counsel for the District of Columbia responsible for 
conducting all of the legal business for the District, supervising a 
staff of over 200 lawyers, and administering an annual operating budget 
of $48 million. Prior to this position, Mr. Rigsby was an Assistant 
United States Attorney for the Eastern District of Virginia in the 
Narcotics Division. From 1987 to 1992, he honorably served our country 
in the United States Army Judge Advocate General Corps as a prosecutor, 
defense attorney, administrative law attorney, law of war attorney, 
legal advisor to the Multinational Force and Observers, and Special 
Assistant United States Attorney for Tennessee and Kentucky.
    Not only has Mr. Rigsby served the legal profession with 
distinction, he has also made a significant contribution to his 
community. He served as one of nine commissioners to recommend 
modifications to the District of Columbia's Sentencing Guidelines under 
the President's National Capital Revitalization and Self-Improvement 
Act. He was appointed by the Chief Judge of the United States District 
Court to serve on the Committee on Grievances, and since 1991 he has 
been an adjunct professor at the University of Maryland, University 
College, and the University of the District of Columbia School of Law.
    I am confident that Robert Rigsby will be a vital asset to our 
legal system as a Superior Court Associate Judge for the District of 
Columbia. Thank you for your careful consideration of this nomination 
in accordance with your established practices and procedures.
                               __________
                 PREPARED STATEMENT OF SENATOR BUNNING
    Thank you, Mr. Chairman.
    Today we have before us Mr. Todd Dillard, who has been nominated to 
be a U.S. Marshal for the Superior Court of the District of Columbia, 
and Mr. Robert Rigsby, who has been nominated to be Associate Judge of 
the Superior Court of the District of Columbia.
    Mr. Dillard has been serving as a U.S. Marshal for the Superior 
Court since 1990, and before that he was in the Secret Service for 
almost 25 years. I also noticed in his biographical information that he 
was a high school science teacher and principal in the early 1960's.
    Mr. Rigsby has led the D.C. Office of the Corporation Counsel since 
February 2000, and has worked for the office since 1992. Mr. Rigsby is 
also serving our country as a member of the U.S. Army Reserves.
    I would like to point out that Mr. Rigsby served in the Army on 
active duty from 1987 to 1992, and during that time he spent several 
years at Fort Campbell in Kentucky, in several different positions, 
including as an Army lawyer to the 101st Airborne Division and as a 
felony prosecutor.
    I am looking forward to hearing from our witnesses today, and 
appreciate the time they have taken to be here.
    Thank you, Mr. Chairman.
                               __________
PREPARED STATEMENT OF SENATOR PAUL STRAUSS, SHADOW U.S. SENATOR ELECTED 
               BY THE VOTERS OF THE DISTRICT OF COLUMBIA
    Chairman Durbin and members of the Senate Committee on Governmental 
Affairs, I am Paul Strauss, the U.S. Senator elected by the voters of 
the District of Columbia, a position referred to as the Shadow Senator. 
I am also an attorney practicing in the local courts of the District of 
Columbia. In each of these capacities, I appreciate the opportunity to 
provide this statement on behalf of my constituents in the District of 
Columbia. I wish to express my wholehearted support for the President's 
nomination of Robert R. Rigsby to be an Associate Judge of Superior 
Court of the District of Columbia. His previous experience as Deputy 
Corporation Counsel for the Enforcement Division as well as the 
Criminal Division, in addition to his work in serving as Corporation 
Counsel, has been of tremendous benefit to the District of Columbia and 
the citizens he has represented. Mr. Rigsby has an accomplished record, 
having served as an Assistant United States Attorney for the Eastern 
District of Virginia in the Narcotics Division, in addition to serving 
as active duty in the United States Army Judge Advocate General's Corps 
from 1987 to 1992. While in the army, his varied experience as a 
prosecutor, administrative law attorney, international law attorney, 
law of war attorney, legal advisor to the Multinational Force and 
Observers, and Special Assistant United States Attorney for Tennessee 
and Kentucky supports his extensive knowledge within the field of law. 
He is an honorable man and a loyal servant to his country. His 
continued service to his nation as an active member of our National 
Guard demonstrates that those values are deeply embedded in this public 
servant. Were I seated with the full rights and privileges of a U.S. 
Senator, I would vote to confirm the nomination of Robert R. Rigsby 
without hesitation. I look forward to his investiture onto the Superior 
Court bench and am confident that he will uphold the honor of our 
justice system. Today I ask that you vote yes for this nomination on 
behalf of the District of Columbia residents who do not have anyone in 
this body who can vote on their behalf.
[GRAPHIC] [TIFF OMITTED] 80601.001

[GRAPHIC] [TIFF OMITTED] 80601.002

[GRAPHIC] [TIFF OMITTED] 80601.003

[GRAPHIC] [TIFF OMITTED] 80601.004

[GRAPHIC] [TIFF OMITTED] 80601.005

[GRAPHIC] [TIFF OMITTED] 80601.006

[GRAPHIC] [TIFF OMITTED] 80601.008

[GRAPHIC] [TIFF OMITTED] 80601.009

[GRAPHIC] [TIFF OMITTED] 80601.010

[GRAPHIC] [TIFF OMITTED] 80601.011

[GRAPHIC] [TIFF OMITTED] 80601.012

[GRAPHIC] [TIFF OMITTED] 80601.013

[GRAPHIC] [TIFF OMITTED] 80601.014

[GRAPHIC] [TIFF OMITTED] 80601.015

[GRAPHIC] [TIFF OMITTED] 80601.016

[GRAPHIC] [TIFF OMITTED] 80601.017

[GRAPHIC] [TIFF OMITTED] 80601.018

[GRAPHIC] [TIFF OMITTED] 80601.019

[GRAPHIC] [TIFF OMITTED] 80601.020

[GRAPHIC] [TIFF OMITTED] 80601.021

[GRAPHIC] [TIFF OMITTED] 80601.022

[GRAPHIC] [TIFF OMITTED] 80601.023

[GRAPHIC] [TIFF OMITTED] 80601.024

[GRAPHIC] [TIFF OMITTED] 80601.025

[GRAPHIC] [TIFF OMITTED] 80601.026

[GRAPHIC] [TIFF OMITTED] 80601.027

[GRAPHIC] [TIFF OMITTED] 80601.028

[GRAPHIC] [TIFF OMITTED] 80601.029

[GRAPHIC] [TIFF OMITTED] 80601.030

[GRAPHIC] [TIFF OMITTED] 80601.031

[GRAPHIC] [TIFF OMITTED] 80601.032

[GRAPHIC] [TIFF OMITTED] 80601.033

[GRAPHIC] [TIFF OMITTED] 80601.034

[GRAPHIC] [TIFF OMITTED] 80601.035

[GRAPHIC] [TIFF OMITTED] 80601.036

[GRAPHIC] [TIFF OMITTED] 80601.037

[GRAPHIC] [TIFF OMITTED] 80601.038

                                   - 

</pre></body></html>
